No.

IN THE

Supreme Court of the Qunited States

DORIAN JOHNSON,
Petitioner,
v.

CITY OF FERGUSON MISSOURI, ET AL.,
Respondents.

CERTIFICATE OF SERVICE

I, Tillman J. Breckenridge, certify that on this 16th day of September, 2019,
three copies of the Petition for a Writ of Certiorari were sent by first class mail to:

Peter J. Dunne

Robert T. Plunkert
PITZER & SNODGRASS
Suite 400

100 S. Fourth Street
Saint Louis, MO 63102
dunne@pspclaw.com

Counsel for Respondents |

I further certify that all parties required to be served have been served. |
I declare under penalty of perjury that the foregoing is true and correct.

TILLMAN i BRECKENRIDGE*

PIERCE BAINBRIDGE

BECK PRICE & HECHT Lip

601 Pennsylvania Ave., Suite 700S
Washington, DC 20004
Telephone: 202-759-6925
tjb@piercebainbridge.com

Counsel for Petitioner
